No. 19-508

 

IN THE

Supreme Court of the United States

AMG CaPITAL MANAGEMENT, LLC ET AL.,

Petitioners,
Vv.

FEDERAL TRADE COMMISSION,
Respondent.

On Petition For A Writ Of Certiorari
To The United States Court of Appeals For The
Ninth Circuit

BRIEF FOR THE CHAMBER OF COMMERCE

OF THE UNITED STATES OF AMERICA AND

NATIONAL RETAIL FEDERATION AS AMICI
CURIAE IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,084 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d). ,

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 20, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
